r
■v

K

MARTIN CO
ON

Supreme Court, U.S.
FILED

-8025

provide!

FOR MAILING
PROVIDED TO W5)
MARTIN COR^CTjjDNAL INSTITUTION
ON
L
FOR MAILING

FEB 2 3 2021
OFFICE OF THE CLERK

No.
IN THE

Supreme Court of the United States
Thomas L. Fast.
Petitioner,
v.

United States Middle District Court, Tampa Division, Florida;
AND

Eleventh Circuit Court of Appeal, Atlanta, Georgia,
Respondents.

PETITION FOR WRIT OF CERTIORARI

Thomas L. Fast
DC# 818015 Rm. A1105L
Martin Correctional Institution
1150 SW Allapattah Road
Indiantown, FL 34956

I*

QUESTIONS PRESENTED
1) Was appellate court’s orders supporting lower court’s decision’s conflict with
Supreme Court and appellate court’s holdings violate Petitioner (former?)
Federal officer, structural due process rights in this Cold War fight?
2) Appellate court and district court have right to miss Petitioner actual-factual
innocence claims manifesting extraordinary fundamental miscarriage of justice
cause procedural defaults violate due process?

II

TABLE OF CONTENTS
CONTENTS

Page(s)

1. Questions for Review

II

2. Certificate of Interested Persons

C1-C5

3. Table of Contents and Index to Appendices

III-VIII

4. Index of Authorities and Acronyms

IX-XIII

5. Citations of Opinions and Orders in Case

1-2

6. Jurisdictional Statement

2

7. Constitutional and Statutes Involved (on Appendix One)

2

8. Statement of the Case

2-18

A. Significant Pre-arrest Circumstances

2-11

B. Course of State Court Proceedings

11-16

C. Course of this Section 2254 Case Proceedings Before this Court

17-18

9. Reasons for Granting the Writ

18

D. The State Court’s and 2254 Court’s Decided Federal Questions in
Direct Conflict with Applicable Decisions of this Court and Appellate
Court’s............................................................................................... 18-22
10. Argument Amplifying Reasons for the Writ

22-37

Question One:
A. Was Appellate Court’s Orders Supporting Lower Court’s Decisions In
Conflict With Supreme Court and Appellate Court’s Holdings Violate
Petitioner, (former?) Federal Officer, Structural Due Process Rights in
this Cold War Fight?........................................................................... 22-30

III

J

Question Two:
B. Appellate Court and District Court Have Right to Misapprehend
Petitioner
Actual-Factual
Innocence
Claims
Manifesting
Extraordinary Fundamental Miscarriage of Justice Cause Procedural
Defaults Violate Due Process?............................................................ 31-37
11. Conclusion

37-38

12. Certificate of Compliance

38/XIV

13. Proof of Service

XV

IV

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner, Thomas L. Fast, respectfully prays that this most Honored Court
will issue a writ of certiorari to review the United States Court’s original
jurisdiction rights and actual-factual innocence(s) facts and laws claims and the
judgment and opinion of the Eleventh United States Court of Appeal, entered in
the above proceeding December 7, 2020, and on February 5, 2021. 28 U.S.C.
2403(a), (b) may apply.
The Eleventh Circuit Court of Appeal and lower court’s have entered
decisions that departs from accepted and usual course of judicial procedure that
calls for an exercise of this court’s supervisory power. State courts have decided
important questions of federal law that conflicts with relevant decisions of this
court and other appellate court.
I. CITATIONS AND OPINIONS AND ORDERS IN CASE
Manatee County, Florida, case # 2007-CF-2989, docket summary sheet,
state proceedings. Appx. Two;
Original judgment document, T-000243; United States Middle District
Court, Tampa, FL Appx. A, on this Petition;
Direct appeal, Fast v. Florida, 69 So.2d 283 (2 FI. DCA 2009) per curiam
affirmed without written opinion. Appx. Two entry # 408;
1

United States Middle District Court, Tampa Division, Florida case # 8:17cv-2670-T-60AEP reported orders. Appx. Five and Six.
Eleventh Circuit Court of Appeal, Atlanta, Georgia case # 18-11071-JJ
(unpublished opinion). Appx. Seven and Eight.
II. JURISDICTIONAL STATEMENT
The judgment of the Eleventh United States Circuit Court of Appeals on
rehearing was ordered on December 7, 2020, and on February 5, 2021.

The

jurisdiction of this Court is invoked under 28 U.S.C. 1254(1). See Appx. Eight.
III. CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Moved to Appendix One, pursuant to Supreme Court Rule 14(1).
IV. STATEMENT OF THE CASE
A. Significant Prearrest Circumstances
Petitioner, Dr. Thomas L. Fast, a Cold War injured (former?) Federal
L
government aerospace engineer and astronaut, American Society of Mechanical
Engineers 1981 engineer of the year awardee1 whom took a bullet in the forehead
intended for President Reagan, have past experienced United States national
security cases. Congress and Supreme Court make decisions on these cases, not
Fast’ current State, 2254, case adversarial communist and “subsidiary

ASME engineer of the year awardees have been Soviet GRU targeted. Most
awardees have disappeared or died (neutralized).
2

organizations” (quoting Florida courts disregarded FL. R. 876) terrorist cells
members in this covert Cold War fight gone overt.
Defense won at trial, but could not overcome daily tampered jury had former
State Attorney Office secretary as foreperson. Appx. Two: attachment 5(5). See
U.S.M.D.C. Court Appx. A. T-66L.3 to 10; T-146L. 1 to T-177. Trial was circus
styled live “Court TV” television broadcast recorded. Fast’s trial witnessed by
foreign intelligence officers. Trial was a Soviet GRU - NKVD - KGB styled.
Aforementioned is substantiated on newly discoverable records, testimonials
to be admitted by this court orders, following:
(l)Case relevant actual-factual innocence, fundamental miscarriage of justice
pleadings, complaints to U.S. House Intelligence Committee, Congress. That may
have been published in “Federal register.” Petitioner does not have access 50
U.S.C. 3024(i) records;
(2) Complaints to Fast’ National Security Council contact, White House,
Washington, D.C.. 50 U.S.C. 3024(i) records;
(3)Complaints to National Security Agency contact(s).

50 U.S.C. 3024(i)

records;
(4) Complaints to Federal Bureau of Investigation, Tampa-Maitland, FL,
Atlanta, GA offices. Appx. U. Fast during this Cold War fight was FBI Tampa
contact ordered not to neutralize anyone. Fast was compliant, in this fight against:

3

a. Soviet GRU-NKVD-KGB;
b. FARC: as known as “Jamiel Ramirez, the Jackal” and Georg Suarez,
“mono buddy jo-joy” cell members include Mrs. “Smith”, a Fla.
licensed criminal attorney, whom’s uncle murdered a former
democracy seeking Columbian president, and claiming to be “Travis
Fast” aunt;
c. Peruvian Shining Path that are brutalizing Petitioner wife;
d. Their (a)-(c) subversive “subsidiary organization’s” members;
e. FBI 50 U.S.C. 3024(i) records on adversarial’s, State of Florida , and
United States “MOB” infections of Manatee Co., Fla. judiciary, Fla.
Department of Corrections and Fla’s government, e.g., Carol P.
Cason, RPR doing business as “dancewear.” Appx. Eleven; see also
App. U.
Fast, prior to this illegal 2007 arrest, with FBI Tampa’s telephonic
permission, set up for drug enforcement administration officer’s neutralization
“Jamiel Ramirez.” “Ramirez’s” legally trained cell members are retaliating against
Fast. Appx. U.
Fast’s wife, Mrs. Nicole R.M. Fast, was GRU, Shining Path and FARC
kidnapped in Sarasota, FL in December 1978, FBI counter-intelligence case.
Labsite enslaved. This Sarasota, FL home and contents were seized by FARC and

4

Shining Path working with Manatee and Sarasota County Sheriffs Office and Earl
Moreland, former Circuit 12 State Attorney, after FARC assaulted Dr. Fast in it
and destroyed evidences of this assault. This assault occurred while Fast was on
Federal leave, vacation, after Fast’s congressional testimony concerning
Columbia’s Space Shuttle loss. Fast’ current 2254 case, “Smith-Leese-‘Fast”’
adversaries were involved in this subversive action. The contents were released to
MOB, that used contents to cause their acts of espionage and proliferation of illicit
drugs. 50 U.S.C. 3024(i) records: Appx. U.
It is established Fast’s state case adversarial terrorist organization’s
constantly neutralize their own people and commit suicide to avoid capture.
Terrorists, not Petitioner Fast, neutralized their Soviet, G.R.U., Peruvian Shining
Path, Columbian E.L.N./F.A.R.C., or Russian MOB (50 U.S.C. 3024(i) protected
record’s, Appx. U), Chameleon aka “Susan I. Fast” in this abhorrent Manatee
County, Florida federally obstructed case. Fast never, not once, mutilated dead.
However, Petitioner’s adversaries have lengthy history of desecration including
their cannibalizing their dead.
Tampa’s FBI Fast contact(s) will testify that Fast actually won at trial. And,
their office, Tampa United States Attorney office declined Fast’ prosecution
testified by prosecutor during sealed, May 15, 2008 Nelson hearing, infra...

5

FBI’s - SSG condemned circuit 12, Sarasota, Fla. FBI and DIA offices in
Congressional report recommending office closures.
Carrying concealed weapon arrest occurred, June 30, 2007 at approximately
3:15 AM, case # 2007-CF-2566, upon Manatee County Sheriffs Office deputy
Matt Orville (oral) Wagner’s initial contact with Fast. Fast immediately cell phone
spoke with FBI day duty officer for advice.

Fast was unaware, FBI Tampa

contacts stated, MOB notified Manatee County Sheriffs Office of Fast’ truck
whereabouts causing planned adversarial capital crimes communist lawyers and
cell members set up of Fast, that were and are GRU guided working with Manatee
County sheriff deputies and “the jackals” cell. 50 U.S.C. 3024(i) records.
Detective Ricardo Alvarado, Colombian, interrogated and arrested Fast.
Alvarado has been aiding known Shining Path and GRU-NKVD throughout this
case. 50 U.S.C. 3024(i) records. Appx. U.
Fast was in state of exhaustion due to stress, lack of sleep and due to police
abusiveness, duressments during this June 30, 2007 trial admitted edited, altered
taped interrogation.
FBI duty officer told Fast to help this well known confused sheriffs office in
their missing persons alert to Chameleon posing as Fast’s stepmother. Appx. U
FBI duty officer and other FBI discussing removing Fast from the sheriffs office
custody.

6

Initial concealed weapon permit violation was false arrest, jailing on June
30, 2007. 50 U.S.C. 3024(i) records Appx. U. See Appx. Ten evidencing nolle
prosequi after false murder, robbery convictions.
Fast decoded national crime information center report shows Fast’s federal
concealed weapon permit, GRU alert. See newly discovered by Fast LexisNexis
report on January 2018 evidencing Fast held Florida concealed weapon permit on
June 30, 2007 day. Appx. Ten.
Tampa, FBI office records show Fast’s compromisation of GRU operated
Sarasota, Fla. retail storefront that were manufacturing bombs, dealing crack
cocaine, computer cellphone hacking. Compromisation caused life threatening
reprisal’s against Fast. 50 U.S.C. 3024(i) records.
Subversives chased Fast to Washington, D.C. then to Fort Bragg, North
Carolina where military police on Fort Bragg made arrest’s on Memorial Day
week of 2007, prior to Fast’s return to Florida and then this case arose. 50 U.S.C.
3024(i) records.
(5)Fast’s FBI Maitland, Florida office contact, head of Florida’s fugitive task
force, remembered report on Fast’s wife kidnapping. Records show Fast leaving a
paper trail through FBI Tampa-Maitland-Washington, D.C. offices. Pre post-arrest
complaints to FBI’s Sarasota Office are Manatee County Sheriffs Office
compromised.

7

This special agent records reflect United States Mail Fraud Act, et al,
violation’s by Fast’ subversive 2254 adversarials. See Appx. Thirteen showing
invoice from State Attorney's Office, for 900-plus infringed upon Fast’ legal
mailings, causing great harm. Appx. Twelve. See, attachment 3.
Mail infringements and subversive actions are retaliatory cause for false
murder and false robbery convictions, illegal imprisonment.
(6) United States Army John F. Kennedy Institute for Military Assistance special warfare operations on Fort Bragg, North Carolina have 50 U.S.C. 3024(i)
records from 1978-1979 to present, evidencing Fast’ 2254 adversaries were
involved in Fast’ wife 1978 kidnapping, labsite enslavement. Colonel Fast was
officer in charge of this office during this period of time. Fast was temporarily
licensed as a deputy U.S. Air Marshal during that time.
Fast’s SWO records evidence a blown drug enforcement administration drug
bust on current 2254 “Smith-Leese-Ryll - ‘Fast’” adversarial’s. 50 U.S.C. 3024(i)
records. And, neutralization by Peruvian citizens of, aka, “Susan I. Fast”, first
husband in Peru a slaver, Russian MOB, “Roger Ryll” (spelling?).
Captain Fast, (former?) Federal officer (at this time listed as missing in
action, as opposed to away without leave?) removed former Sarasota, Fla. Circuit
12 Sheriff Monge’s Sarasota County Sheriffs Office main street office Soviet flag
flying on its rooftop flag pole. Fast presented this flag to Governor Lawton Chiles.

8

Immediately prior to Fast’s arrest, Fast’ observation of “Callahan,” Appx. A:
T-000293 1. 1 to 10, T-000291 1. 17; known GRU and Forces Armed
Revolutionary de Colombia, Soviet flag flying communist party rallies held in the
open streets of Bradenton, Manatee County, Fla. causing life threatening reprisal’s
against Fast.

Drug enforcement administration officers made bank robberies,

murder arrests in Orlando, Fla. on some of “Callahan’s” daughter(s) known GRU
and MOB that continually failed in killing Petitioner Fast.
Subversive’s communicate profusely and are extremely expeditious in law
practice clearly working Florida’s circuit 12. Exemplified in current abhorrent
Manatee County originated 2254 case. 50 U.S.C. 3024(i) records. See Appx. U.
Pretrial judge “Janette Dunnigan” is GRU officer. Prior to Fast arrest in
2007 was involved in attempts on Fast’s life and legal mail infringement’s.
Appx. U Russian Dumas legalized assassinations in 2006. See Eleventh
Circuit Court of Appeal records. “Callahan(s)” Manatee County Sheriffs Office
partner “James Brinson” testified against Fast during grand jury proceeding
introducing evidence’s against Fast that were not trial admitted because there was
no link to Fast to those evidences, see Deputy Brinson’s deposition in State
Attorney’s records. Appx. U.
(7) Dr. Fast was compromised in 1978 by Shining Path MOB 2254
adversarial’s. Appx. U. MOB replaced Fast’ biological father, Bruce O. Fast and

9

third wife, Susan I. Fast with Chameleon’s, notice plastic surgery scars. Appx.
UU(a) page 4 line 33-34; 50 U.S.C. 3024(i) records; Appx. U. “Bruce O. Fast,”
State witness, testified to possessing robbery jewelry during Dr. Fast’ jailing Appx.
Twelve: Attachment Two.
Fast was compromised by Aldrich Ames and GRU officer FBI-SSG
compromised in 1988, that was one of several Central Intelligence Agency deputy
directors. 50 U.S.C. 3024(i) records. Appx. U.
Dictator “VLAD” Putin and General Mikhail Moiseyve failed at replacing
Dr. Fast with Chameleon in 1988. Appx. U.
(8) Aforementioned State agents, and Fast’ former Estes Model Rocket
employees of Estes Park and Pimrose, Colorado are aiding Soviet GRU, FARC,
Shining Path causing Fast’ “walling off’ (moot response’s) from his federal
employer and federal contacts. Fast, was fired from one Federal employer in 1982
due to Ames and that GRU officer arrested in 1988, after stopping bullet intended
for President Reagan causing head injury, additional, post-concussion syndrome.
50 U.S.C. 3024(i) and executive order 12333 protected records. Appx. U. FBI
Tampa evidence’s show Fast has sustained two gunshot wounds to the head.
Appx. U.

10

Fast diligently utilized Federal contacts as instructed by former director of
Central Intelligence Agency Secretary and Federal contacts. Dr. Fast has not taken
law into his own hands. Appx. U.
Supposedly, Fast’ chains have been switched to 2254 Communist
adversarial law practitioners. To “Smith(s)” that forces Armed Revolutionaries de
Colombia leader’s complained about to the press in Havana, Cuba during 20072008 peace treaty negotiations. There are unsatisfied federal arrest warrants on
majority 2254 adversaries. Verifiable by U.S. Marshal deputy. 50 U.S.C. 3024(i)
records.
B. Course of Proceedings in the Federal Courts
False arrest illegal imprisonment occurred June 30, 2007. Manatee County,
Florida case # 2007-CF-2566 carrying concealed weapon [permit] charge against
Petitioner. Fast’s coded, GRU alert, 2007 National Crime Information Center
Report evidences permanent federal concealed weapons permit to be U.S. Deputy
Marshal admitted. Fast;s 2007 to 2009 Florida concealed weapons permit is shown
on newly discovered Lexis Nexis report. Appx. Ten. Case now nolle prosequi
after false murder, robbery convictions. Appx. Ten. Clearly false and federally
obstructive arrest, illegal imprisonment. Appx. FF: D-23 lines 11 to 25; see,
USMDC Appx. A: T-000152 to T-000156, Denial; see untranscribed, case # 2007CF-2566, first appearance, and Fast’s statement to judge that must be admitted

11

through court order of Fast’s open court United States Middle District original
jurisdiction rights statements because Manatee County agents refusal to provide
this record. Appellate counsel during direct appeal had to petition Florida Supreme
Court for Manatee County to release paper transcript record. See Appx. Two: case
# 2009-3523.
Fast was falsely convicted of murder, robbery July 13, 2009. Appx. A: T000243.

Trial judge denied, “Motion for Judgment of Acquittal,” Appx. Two: T-l 140
to T-1145, after clearly conclusive on scrivener erred trial record planted, falsified
convicting evidences were trial admitted in this state witnesses perjured case.
Appx. Twelve: attachments one and two.
Prosecutor throughout trial stated “facts not in evidence.” Appx. Twelve:
Attachments 5 and 6; see, Appx. A: T-1283 1. 23-25. See also Appx. U: based on
Fast’ FBI complaints against Manatee County scrivener’s. Fast provide Tampa
FBI with CD-ROM trial transcript record requesting double-triple veracity test to
“Court TV” recording and Manatee County court recorder’s office film’s records.
See USMDC Appx. U; T.
Prosecutor knowingly withheld 50 U.S.C. 3024(i) protected actual-factual
innocence’s records. Prosecutor knowingly, willfully and wantingly, in hatred

12

towards Fast, witnessed on “Court TV

9599

aided GRU, FARC, and Shining Path

prosecutorial’s.
Appellate counsel incompletely raised and argued police Miranda act
violation’s and duressment’s. Appellate counsel was absent to, failing, to raise
much stronger claim’s on direct appeal. See, 2254 petition claim’s. Fast did not
receive assistance of appellate counsel pursuant to the Sixth Amendment. Direct
appeal was per curiam affirmed without written opinion. Fast v. State, 69 So.2d
283 (Fla. 2d DCA 2009); # 2D09-3523; Appx. Two: trial docket summary sheet
entry # 375; Appx. Three A.
Fast exhausted 2254 claims on direct appeal “motion for rehearing”; petition
for writ of supersedeas (prohibition, certiorari)”; and “motion for writ of habeas
corpus: ineffective assistance of counsel”. See, Appx. Two: trial docket summary
sheet entries no.’s # 375, 420, 424, 445, 453, 454. See, Appx. Three B, C, D, E;
Four A-E.
After state court’s denial’s and dismissal’s to Fast’ postconviction
proceedings. See Appx. Two: state court docket summary sheet entries # 404, 408,
412, 418, 419, 421, 422, 423, 425, 428, 439, 440, 446, 449, 450, 455, 457. Fast
filed 2254 petition application’s to U.S.M.D.C. Tampa Division, Fla. Appx. Five,
A, B. case # 8:17-2670-T-60AEP, sua sponte dismissed. Appx. Five C. Fast then
filed motion to show equitable tolling entitlement’s, denied. Appx. Six.

13

Fast appealed to the 11th U.S.C.C.A. case # 18:11071-JJ. Appx. Six A thru
I. Per curiam affirmed. Appx. Seven. Rehearing denied. Appx. Eight A. Early
mandate issued December 15, 2020, prisoner received December 23, 2020. Appx.
Two: U.S.M.D.C. docket Summary sheet entry # 52 page 5; Appx. Eight B.
“Motion to Stay Mandate” was filed December 23, 2020. Appx. Eight C.
“Motion to Recall Mandate and Amend Judgment to Prevent Injustice,”
denied on February 5, 2021. Appx. Eight C.
During 2254 appeal Fast filed three (3) motions to supplement the record
with newly discovered equitable tolling entitlement’s (rights) evidences:
1.) Middle District Court was moot on first supplement without issuing order.
U.S.M.D.C. Appx. 2: Docket Summary Sheet, entry # 35;
2.) Second supplement granted. Evidencing Middle District agreement Fast
have equitable tolling rights. State did not respond. State went, moot,
waived Fast’ asserted motion. Appellate court was moot to supplement.
U.S.M.D.C. Docket summary sheet, entries # 44,45; Appx. Six F.
3.) Third supplement denied due to procedural err to improper Rule 10(c)
titling. Court did not review merits of third supplement. U.S.M.D.C. docket
summary sheet entries # 46,49; Appx. Six H, I.
“Petition for Rehearing En Banc”, denied without written opinion December
7, 2020. U.S.M.D.C. docket summary sheet, entry # 52; Fast presented actual-

14

factual innocence’s records to State courts, U.S.M.D.C. and Eleventh Circuit Court
of Appeal show cause extraordinary fundamental miscarriage of justice cause
procedural defaults. Appx. Eight A, B, C.
This most Honored Supreme Court has, exclusive, original jurisdiction
rights.
Once again, Manatee County has frustrated Federal, State courts prior to and,
after Fast’ arrest.

Manatee Co., Fla.; Florida Department of Corrections and

Florida Department of Law Enforcement continuously refused to acknowledge Dr.
Fast’ immunities posted on Fast’ National Crime Information Center coded report.
Appx. V; X; Appx. A: T-000152 to F000156; Appx. FF: D-32 1. 11 to 25,To be
admitted by court order; see pretrial Nelson hearing, infra, Appx. Two: state docket
summary sheet entries # 272, 283.
During Nelson hearing Judge Gilbert A. Smith questioned prosecutor
concerning Fast’ claiming relevancy to classified Federal records that need to be
admitted. Prosecutor stated he checked with Tampa U.S. Attorney, FBI offices
declined Fast’s prosecution. Prosecutor knowingly withheld from defense Federal
actual-factual innocence’s, 50 U.S.C. 3024(i) records.
Judge Smith questioned defense counsel to his admitting aforementioned
records. Appx. U, V. Counsel similarly stated “...I don’t need to go through all
that...”. Because counsel knew Dr. Fast was innocent based on police reports,

15

depositions, falsified evidence’s, and perjured testimonies without petitioning U.S.
government for protected actual innocence to murder (and robbery) records. Appx.
U; Appx. Twelve: Attachments 1 and 2.
This court purposely withheld Nelson hearing, in-camera sealed,
untranscribed, record from appellate counsel and Dr. Fast during postconviction
proceedings. Because this record clearly evidences Brady and Giglio violations,
ineffective assistance of trial counsel, abuse of court discretion(s), causing access
to the court fair trial due process fifth, fourteenth section 1, 3 constitutional
magnitude violations.
Manatee County prejudicially denied admission into records of Nelson
hearing during case # 2D12-237. Fast, as indigent, is entitled to one free copy of
this proceeding. Manatee County court refuses to provide free copy but want
payment for copy of Nelson hearing. Habeas-certiorari court must order Manatee
court to provide Fast copy.

So that court may review relevant claim’s

substantiating Fast’s on certiorari; 2254 proceeding.
In order for Fast to comply with his Federal “for your eyes only” permanent
Federal security agreement in Fast’ effort to maintain 50 U.S.C. 3024(i) records
classified Federal casework’s integrity, names and 2254 case relevant material’s
are not publicly disclosed. But, must be ex parte, sealed, by courier admitted into

16

habeas proceeding, for access to the court, fair trial, due process rights, by
Supreme Court orders.
C. Course of Proceedings in This Section 2254 Case Before the Court
October 30, 2017 Fast filed 2254 application, District Court Docket
Summary Sheet entry # 1. Appx. Five C.
Dr. Fast asserted timeliness, equitable tolling rights, three actual-factual
innocence’s claims manifesting extraordinary fundamental miscarriage of justice
cause procedural default(s), following:
1) Insufficient conviction evidence’s;
2) a) Brady violations;
-3) b) Prosecutorial misstatements to facts not in evidence;
3"4j Ineffective assistance of appellate counsel for failure argue, evidence
stronger issue’s.
Aforementioned raised on the following
1) Petition application dismissal Appx. Five C;
2) Motion to reopen case due to equitable tolling rights, District Court
Docket Summary Sheet entries # 22, 23 denial. Appx. Six;
3) “Memorandum to facts and law...”, District Court Docket Summary
Sheet entry # 34: appeal appendiced on certificate appealability, COA B. Brought into appeal. Both court’s were moot to this brief.

17

4) Claim’s argued in appeal briefs, motion’s. Appx. Six A, C, F, H, I.
Court appeals per curiam affirmed September 2, 2020. Appx. Seven.
Court appeals denied rehearing December 7, 2020, postmarked December 8,
2020 mailed December 15, 2020 same day filed mandate received December 23,
2020. Appx. Eight A, B, C.
“Motion to Recall Mandate and Amend Judgment to Prevent Injustice”
denied February 5, 2021. Appx. Eight C.
V. REASONS FOR GRANTING THE PETITION
D. The Court of Appeals Has Decided Federal Question’s in Direct Conflict With
Applicable Decisions of This Court
(1) Eleventh Circuit panel opinion erred per curiam affirmed district court sua
sponte dismissal Mr. Fast’ 2254 untimely holding Rule 4 allows sua sponte
dismissal without reaching merits.

Eleventh Circuit court panel opinion per

curiam affirmed District Court denial “application to motion to reopen, 28 U.S.C.
2254, petition pursuant to judge’s order to show equitable tolling entitlements,”
that evidenced actual-factual innocence’s manifesting, miscarriage of justice.
Contrary to Eleventh Circuit court holding, equitable tolling rights are cognizable
on Rules 4, 5 and 7 on Fast’ briefs, filings. Appx. Six F.
(2) Convictions, imprisonment are false, illegal violations of Article III Section
2 cl. 2, 3, and section 3 cl. 1; article VI cl. 2 Supremacy clause, 28 U.S.C. 2254

18

Senate Revision Amendment, 18 U.S.C. 111(a)(2), 18 U.S.C. 1114 (immunity to
criminal prosecution) 5th and 14th amendment due process U.S. constitutional
amendments.

United States district court or higher have original jurisdiction

rights. District court and appellate court orders directly conflict with applicable
decisions of this court cognizable on this 2254, in light of the court’s precedence.
This court should exercise its supervisory powers over the lower courts and issue
writ. 28 U.S.C. 2254(b)(i)(B)(i)(ii),(d)(l)(2). Estelle v. Williams, 425 U.S. 501,
503, 96 S.Ct. 1691, 48 L.Ed.2d 126 (1976) (“the right to a fair trial is a
fundamental liberty secured by the fourteenth amendment. The presumption of
innocence, although not articulated in the constitution is a basic component of a
fair trial under our system of criminal justice.”) Fast fundamental liberty to fair
trial rights was violated. Record shows actual-factual innocence’s due to planted,
falsified evidences.

28 U.S.C. 2254(d)(l)(2).

Prosecutor, trial judge denied

admission to 50 U.S.C. 3024(i) state non-downgradable records manifesting rare
extraordinary fundamental miscarriage of justice cause procedural defaults.
U.S.M.D.C. Appx. A: T-000152 to T-000156.

This court should exercise its

supervisory powers and issue writ.
(3) Eleventh Circuit panel opinion erred per curiam affirmed district court sua
sponte dismissal, denial of Mr. Fast’ 2254, untimely without equitable tolling
rights, without reaching meritorious prosecutor misconduct’s claim two: (a) Brady

19

2

violation prosecutor trial withheld perjured grand jury indicting evidences,
testimonials because no links to Fast to charges, prosecutor denied admittance to
50 U.S.C. 3024(i) actual-factual innocence’s records; and, failure to move state
proceeding into proper United States court’s have original jurisdiction rights; (b)
prosecutor misstatements to facts not in evidence. District, and appellate court’s
orders are contrary to Supreme Court decision in Giglio v. United States, 405 U.S.
150 (1972) (prosecutor’s misstatements to witness testimony, Id. at 152-155
(prosecutor misstatements to witness testimony, such as plea agreement [with Mr.
Pierola, state jail inmate agent, Appx. Twelve: Attachment 3 and 5] in exchange
for testimony violates, due process).

Record shows Fast’ actual-factual

innocence’s to the clearly false convictions, illegal imprisonment causing
miscarriage of justice based on district court appendiced police reports,
depositions, trial transcripts, newly discoverable 50 U.S.C. 3024(i) records to be
admitted ex parte, sealed, through courier, causing structural due process
violations. Appx. Twelve: Attachments 1, 2, 3, 5, 6; U.S.M.D.C. Appx. A: trial
transcript records to be ordered from U.S.M.D.C. and Tampa, Fla. State Attorney
General office. Prosecutor misstatements to facts not in evidence presumptively
prejudiced judge, jury causing due process Fifth, Fifteenth section 1, 3 U.S.

2 Brady v. Maryland, 373 U.S. 83 (1963) (Supreme Court held that due process
requires the prosecutor to disclose, upon request, evidence favorable to petitioner
when evidence is material to guilt or punishment.)
20

constitutional .amendments violations. 28 U.S.C. 2254(d)(2). This Court should
exercise its supervisory powers and issue writ.
(4) Eleventh Circuit panel opinion erred per curiam affirmed district court sua
sponte dismissal, denial 2254 without reaching Fast meritorious ineffective
assistance of appellate counsel claim three. Court’s decisions are in direct conflict
with Strickland v. Washington, 466 U.S. 668 (1984) (actual or constructive denial
of counsel presumed, to result in prejudice).

Record shows actual-factual

innocences to clearly false convictions, illegal imprisonment manifesting injustice.
Fast is sustaining fundamental miscarriage of justice based on police reports,
depositions, trial transcripts, newly discovered 50 U.S.C. 3024(i) actual-factual
innocence records to be admitted.

28 U.S.C. 2254(d)(2).

Appx. Twelve:

U.S.M.D.C. attachments 1, 2; Appx U.
Appellate counsel failed to raise stronger actual-factual innocence trial
admitted issues on direct appeal and failed in case transfer to United States Middle
District Court original jurisdiction rights, to admit 50 U.S.C. 3024(i) records,
Appx. U, V, prejudicially causing Sixth Amendment right violations to
representation and Fifth, Fourteenth Section’s 1, 3 Amendment access to the court
for fair trial [structural] due process constitutional magnitude rights violations(s)
manifesting miscarriage of justice cause procedural defaults.

21

28 U.S.C.

2254(d)(1). This Court should exercise its supervisory powers over lower courts
and issue writ and order assignment of counsel to Fast. Appx. Six C.
Petitioner respectfully urges aspects of Circuit Court’s decisions are
erroneous at variance with this Court’s decisions explained in argument below.
VI. ARGUMENTS AMPLIFYING REASONS FOR WRIT
QUESTION ONE
(A) WAS
COURT’S

APPELLATE
DECISION’S

COURT

ORDER’S

SUPPORTING

LOWER

CONFLICT WITH SUPREME COURT AND

APPELLATE COURT’S HOLDING’S VIOLATE PETITIONER, (FORMER?)
FEDERAL OFFICER, STRUCTURAL DUE PROCESS RIGHTS IN THIS COLD
WAR FIGHT?
“THE U.S. CONSTITUTION AND ACTS OF
CONGRESS HAVE GIVEN TO THE FEDERAL
GOVERNMENT EXCLUSIVE POWER OVER
CERTAIN MATTERS SUCH AS INTERSTATE
COMMERCE AND SEDITION TO THE EXCLUSION
OF STATE JURISDICTION.
OCCURS WHERE
FEDERAL LAW SO OCCUPIES THE FIELD THAT
STATE COURTS ARE PREVENTED FROM
ASSERTING JURISDICTION. „3
a) Dr. Fast admitted argument’s, evidence’s to lower court’s showing
Congress, Supreme Court have prevailing exclusive, original jurisdiction rights to

3 Black’s Law Dictionary, 6th Ed., definition of “Federal pre-emption”, pages 424
to 425.
22

this Cold War case.

U.S.M.D.C. Appx. U noting executive order 12333

protection’s.
“Federal law so occupies the [Cold War] field that [Florida] state courts are
prevented from asserting jurisdiction.” However, Florida law practitioner’s output
to the FBI is expected.
In this 2254 case U.S. national security interest’s, treaty violation’s
supersede Manatee County, Florida’s Soviet GRU, Forces Armed Revolutionaries
de Colombia, Peruvian Shining Path and subsidiary organizations Florida, law
practitioner’s false, illegal prosecution of Fast, former Federal officer with
immunity rights. Art. Ill, Sec. 2 cl. 2 U.S. Constitution; 18 U.S.C. 2334 national
security issues can be raised at any time in the same [2254] civil action.
This Florida case based on false conviction’s to Soviet Chameleon death,
and non-existent robbery.4

Appx. Twelve: Attachment’s 1, 2 trial transcript

outlines. See, Appx. Two entries # 375 (2DCA case # 2D09-3523 rehearing dated
6/15/2011 and 7/05/2011); # 380, 415, 420, 424, 453, 454; 2254, appeal for claim’s
argument’s appendiced evidence’s. Appx.’s Three A(5), B, C, D; Four C; Five C;
Six and Six A, F; Seven; Eight C(2).

4 See, Manatee County, Florida case # 2007-CF-2989; Appx. Twelve: U.S.M.D.C.
attachment 7; Appx. Two: case # 2D 12-237 entry #415.
23

THOMAS L. FAST WAS NOT INVOLVED IN ANY
FORM, SHAPE OR MANNER TO DECEDENT
DEATH, NOR ROBBERY. THE STATE TRIAL
ADMITTED NO CONVICTING EVIDENCE.
Florida Department of Law Enforcement referred Fast to higher Federal
authorities. U.S.M.D.C. Appx. V. Warden’s, Florida Secretary Department of
Corrections denied Fast’ grievance’s recognizing Fast’ NCIC report shows GRU
alert, immunities. U.S.M.D.C. Appx. X records are State non-downgradable Appx.
U.
Prosecutor pretrial knew of pendant classified records. U.S.M.D.C. Appx.
FF: D-23 1. 11 to 25; Appx. A: T-000152 to T-000156, denied; prosecutor
statement in Nelson hearing5 to be subpoenaed. Supreme Court deputy marshal
may introduce Fast’ coded National Crime Information Center Report evidencing
Petitioner immunities, Supreme Court original jurisdiction rights.

28 U.S.C.

2254(d)(l)(2).
5 See Nelson hearing: Appx. Two: Trial docket summary sheet entries # 272, 380
(court order) untranscribed sealed May 15, 2009 hearing. Nelson v. State of
Florida, 274 So.2d 256 (1973) (district court held that where Defendant, before
commencement of trial requests discharge of his court appointed counsel, trial
judge should make an inquiry of Defendant as to reason for request and, if
incompetency of counsel is assigned as reason, should make a sufficient inquiry of
Defendant and his appointed counsel to determine whether there is cause to believe
that counsel is not rendering effective assistance o Defendant, and if reasonable
cause for such belief appears, trial judge should make a finding to that effect on
record and appoint substitute counsel who should be allowed adequate time to
prepare defense, but if no reasonable basis for such belief appears, trial judge
should so state on record and advise Defendant that if he discharges his original
counsel the State may not thereafter be required to appoint a substitute).
24

Aforementioned, predicates lower court’s access to court(s) fair trial
structural due process violations of Petitioner and Supreme Court’s Fifth,
Fourteenth Sections 1, 3 United States Constitutional Amendments.
Lower court’s mootness, waiver’s to Fast’ claims predicate United States
Supreme Court (or, United States district court) original jurisdiction rights. Appx.
Two entries # 408 (Fla. 2d DCA, docket summary sheet pg. 2, case # 2D09-3523
7/21/2011 rehearing and striking order a pro se motion for extension of time); see,
Appx.’s 4, 5, 6, 7, 8 for written opinion’s evidencing mootness, waiver’s to
Supreme Court original jurisdiction rights.
In this Cold War case Fast’ FBI, Tampa, contact(s) ordered Fast not to
neutralize anyone. Fast was compliant. Disappointantly to Fast, and Federal
contacts, lower court’s wavied and prejudicially denied, Appx. Four, Fast’ right
under Article VI, cl. 2 supremacy clause; Fifth, Fourteenth sections 1, 3 U.S.
constitutional amendments; 28 U.S.C. 2254(b)(i)(B)(i)(ii), (d)(l)(2) senate revision
amendment, 18 U.S.C. 111(a)(2) 18 U.S.C. 1114 (immunity to criminal
prosecution); see, Tanella, Id.. at 291, 29; Mannypenny, Id., at 242; Fair.6

6 New York v. Tanella, 239 F.Supp.2d 291; 2003 U.S. Dist. LEXIS 346; 02 CR
1343 (NGG); January 13, 2003 decided. Dismissed by N.Y. v. Tanella, 2003 U.S.
Dist. LEXIS 15158 (E.D.N.Y., Sept. 3, 2003) petition for removal granted). Id. at
291, governments > federal government > employees and officials “...if a federal
officer is sued in state court for any act under color of office and raises a colorable
Federal defense, the right of removal under 28 U.S.C. 1442(a)(1) is made
absolute.” Id. at 291, governments > Federal government > employees & officials
25

Fast has constitutional right to abide by “No Harm Done” policy and FBI
cautions imposed on U.S. Intelligence Officers in domestic legal cases during
subversive prosecutorial’s armed assault’s on Fast (and maternal family).

18

U.S.C. 115(a)(2). See, Nelson hearing in-camera film of state attorney abherent
actions standing behind Fast. See, trial recording’s of individual’s seated behind
Fast and their subversive, trial disrupting action’s, “Court TV” recorded. See 50
U.S.C. 3024(i) records that include FBI’s double-triple veracity test. U.S.M.D.C.
Appx. U; T. see, subpoena’s from Fast through U.S.M.D.C. 2254 proceeding were
unresponded to evidencing mootness to Supreme Court original jurisdiction rights.
Appx. Two: U.S.M.D.C. docket summary sheet entries # 4 to 11.
National Intelligence Office, House and Senate Intelligence Committees,
Federal agencies (U.S. Army S.W.O.; FBI; CIA, NS A, NSC) 50 U.S.C. 3024(i)
newly discoverable records evidence actual-factual innocence’s manifesting

“pursuant to the supremacy clause of the United States Constitution, U.S.
Constitution Article VI, Clause 2, where a Federal officer Defendant ... would be
completely immune from all criminal liability ... the United States Constitution is
Supreme to the States ... There is no occasion for any further trial in the state court
or in any court.” Id. at 292 {2003 U.S. Dist. LEXIS 11} Arizona v. Mannypenny,
451 U.S. 232, 242, 68 L.Ed.2d 58, 101 S.Ct. 1657 (1981) (“noting that the
Supreme Court ‘has held that the right of removal is absolute for conduct
performed under color of federal office”). See also In re Fair, (C.C. Neb. 1900)
100 F. 49. State’s key 18.3, United States Key 52. Located in, Thompson West
Pub., United States Code Annotated, constitution, “article 3 section 2 clause 1 to
article 7”, Art. VI cl. 2 pg. 539 note 271. Acts of Federal agents, crimes and
criminal procedure courts and judicial procedure. (“An act done by an officer or
agent of the United States is not an offense against the laws of the state.”)
26

fundamental miscarriage of justice cause procedural defaults. 50 U.S.C. 3024(i)
records show false convictions and illegal imprisonment predicating Supreme
Court original jurisdiction rights, due process violation(s). Article III, Section 2,
Clause 2; Article VI, Clause 2; Fifth, Fourteenth Sections 1, 3 United States
Constitutional Amendments; 28 U.S.C. 2254(b)(i)(B)(i)(ii),(d)(l)(2) Senate
Revision Amendment; 28 U.S.C. 1331, 18 U.S.C.; 18 U.S.C. 2338, 18 U.S.C. 2334
to 2338; 28 U.S.C. 1339,18 U.S.C. 1708, 18 U.S.C. 1341 to 1349.
Manatee County and Florida courts have history of frustrating Federal courts
constitutional rights. Exemplified in this case. See Harvest, Baldwin, Lee, and
Mayo?

1 Thompson West Pub., Constitution, United States Code Annotated, “Article 3
Section 2 Clause 1 to Article 7”, Art. Ill Sec. 2, Cl. 2, page 239, note 5 Exclusiveness, Nature and Scope of Jurisdiction, Original Jurisdiction. “Order
restraining state governor from interfering with Federal court order directing
desegregation of county public school system and order to show cause why
governor should not be held in contempt did not make cause one between United
States and the State and therefore cognizable only in United States Supreme Court,
since where state officials use state power to frustrate federal court orders those
officials are subject to restraint by injunction and it is the officials and not the state
that are proper parties, but, in any event, Supreme Court has only original and not
exclusive jurisdiction of actions between the United States and a state.” Harvest v.
Board of Public Instruction of Manatee County, Fla., M.D.Fla. 1970, 312 F.Supp.
269. Federal court’s key 1141; Federal court’s key 1142. Thompson West Pub.,
constitution, United States Code Annotated, “Article 3 Section 2 Clause 1 to
Article 7”, Art. VI Cl. 2, page 488 note 93. - Preemption Generally, Federal Laws
Generally. “Federal law will preempt state law in several circumstances: congress
can specifically express that state law is preempted; area of law with
comprehensive.BMbwiVc
(Lc&c
27

Departure from essential requirement of law occurred. Because harm was
not corrected on state direct appeal or 2254 proceeding there is continuing
illegality, not erroneous proceeding.

Continued deprivation of rights under
O

unconstitutional statue have resulted irreparable injury to Fast (and material

family). Fast evidenced state trial court(s) illegal jurisdiction, illegal and irregular
state court’s procedures, lower federal court’s supported through their timeliness
rulings, not considering actual-factual innocence’s fact’s manifesting miscarriage
of justice causing procedural defaults.
b.) Supreme Court is appellate court has power to revise lower court decision’s,
authority to entertain original habeas petitions, may issue writ. Art. VI, cl. 2 U.S.
Constitution Amendments; 28 U.S.C. 1442(a),(c)(3). See ex parte, Watkins, see

8 Ex parte Watkins, U.S. Dist. Col. 1833, 32 U.S. 568, 8 L.Ed. 768. “The Supreme
Court may issue writ of habeas corpus in aid of its original jurisdiction. Federal
regulation may not allow for state supplement; field of dominant Federal interest
may preclude state laws on same subject; or state law may actually conflict with
and obstruct intent and objectives of Congress.” Thompson West Pub.,
Constitution, United States Code Annotated, “Article 3 Section 2 Clause 1 to
Article 7”, Art. VI cl. 2, page 532 note 251 - State judges bound by supreme law,
courts, and judicial procedure. “No court, state or federal, may serve as an
accomplice in the willful transgression of Federal laws by which judges in every
state are bound.” Lee v. State of Florida, (U.S. (Fla.) 1968), 88 S.Ct. 2096, 39 U.S.
378, 20 L.Ed.2d 1166. States Key 4.1(1).
Thompson West Pub., Constitution, United States Code Annotated, “The
authority of state laws or their administration may not interfere with the carrying
out of a national purpose, and where enforcement of a state law would handicap
efforts to carry out the plans of the United States, the state enactment must give
way.” United States v. Mayo, (N.D. (Fla.)) 1942, 147 F.Supp. 552, affirmed 63
O^.^TCR^AL..."
28

also Appx. Twelve; Attachment’s One (emphasis), Two (emphasis) thru Six; see,
also, Appx. Two: U.S.M.D.C. Docket Summary sheet entries # 1, 14, 15, 19, 22,
24, 34, 35 for appendices.
U.S.M.D.C. Appendices show trial transcript’s, depositions, police reports
conclusively evidence actual-factual innocence’s manifesting injustice cause
procedural default’s.
In this 2254 case lower court’s ruled favorably to state prosecutorial Soviet
GRU, Forces Armed Revolutionaries de Columbia and Peruvian Shining Path
adversarial’s retaliation’s against Fast, a Cold War injured Federal government
aerospace engineer and astronaut. Subversive adversarial’s are committing legal
assaults and batteries on Fast (and maternal family) whom are illegally accessing
Florida and Federal lower court’s. Predicating Supreme Court original jurisdiction
rights.

Causing access to the courts fair trial structural due process rights

violations. Art. Ill, Sec. 2, Cl. 2; Art. VI cl. 2 supremacy clause; Fifth, Fourteenth
Section’s 1, 3 U.S. Constitution Amendments; 28 U.S.C. 2254(b)(i)(B)(i)(ii),
(d)(l)(2) Senate Revision Amendment; 18 U.S.C. 111(a)(2), 181 U.S.C. 1114
(immunity to criminal prosecution). See Appx U: 50 U.S.C. 3024(i) and Executive
Orders 12333 protected records.

S.Ct. 1137, 319 U.S. 441, 87 L.Ed. 1504, rehearing denied 64 S.Ct. 27, 320 U.S.
810, 88 L.Ed. 489. states Key 18.3.
29

Admission to 50 U.S.C. 3024(i) records into this 2254 manifest fundamental
miscarriage of justice cause procedural default’s.
Based on aforementioned, Dr. Fast have rights under Article VI clause 2
supremacy clause, United States Constitution Amendments;
1442(a),(c)(3);

28

U.S.C.

2254(b)(i)(B)(i)(ii),(d)(l)(2)

Senate

28 U.S.C.
Revision

Amendment; 18 U.S.C. 111(a)(2), 18 U.S.C. 1114 (immunity to criminal
prosecution) [and, wife, Mrs. Nicole R.M. Fast and maternal family rights under 18
U.S.C. 115(a)(2).]
Supreme Court must exercise it’s constitutional duty to secure Petitioner’s
Fifth, Fourteenth Section’s 1, 3 constitutional amendments rights.
It is well understood our nation lose’s more intelligence through our courts
than any other means foreign intelligence agencies have at their disposal. Maybe,
through the course of this 2254 proceeding this Court and Congress may curtail
further losses. Especially, when it comes to attorneys, police (Florida Circuit’s 12
(and 6, Pinellas County, Fla.) in this case), criminal’s and court’s disparagement’s
of United States Court’s original jurisdiction rights. And, state officer’s, agent’s
compromisation’s of United States National Security issues, case’s; and denial’s to
rights of current and former federal officer’s, agent’s such as Fast, and their
families from subversive activities.

30

Dr. Fast diligently previously attempted to work covertly to not damage or
violate his written federal “for your eyes only,” top secret security clearance(s).
QUESTION TWO
B) APPELLATE COURT AND DISTRICT COURT HAVE RIGHT TO
MISAPPREHEND
CLAIM’S

PETITIONER

MANIFESTING

ACTUAL-FACTUAL
EXTRAORDINARY

INNOCENCE’S
FUNDAMENTAL

MISCARRIAGE OF JUSTICE CAUSE PROCEDURAL

DEFAULT’S

VIOLATE DUE PROCESS?
a) In this, what was supposed to be covert gone overt, Cold War fight. State
court’s have frustrated Petitioner and United States Court’s constitutional original
jurisdiction rights causing due process violations under Article III Section 2 Clause
2; Article VI Clause 2 Supremacy Clause; Fifth and Fourteenth Section’s 1, 3
United States Constitutional Amendments; 28 U.S.C. 2254(b)(i)(B)(i)(ii), (d)(l)(2)
Senate Revision Amendment; 28 U.S.C. 2441 (removal of case); 18 U.S.C.
111(a)(2), 18 U.S.C. 1114 (immunity to criminal prosecutor). 28 U.S.C. 1331; 28
U.S.C. 1339, 18 U.S.C.; 18 U.S.C. 2338, 18 U.S.C. Appx. U, V, X.
Fast was prejudicially denied access to court compulsory due process rights
to admit 50 U.S.C. 3024(i) and executive order 12333 protected records,
testimonies,

evidence’s

showing

actual-factual

innocence’s

manifesting

fundamental miscarriage of justice cause procedural default’s. Appx. Three A(5)

31

thru (E; Four A(1),(2),B(1),C(1),D; Five C(1); six (1); Six (1)> A> F H I; Seen
(brief); Eight (brief), C(2).
The prosecutor knowingly withheld classified Federal agencies actualfactual innocence’s record’s, Brady violation,9 including evidence’s, grand jury
admitted by deputy Brinson, whom had “Callahan” a known GRU officer, as a
Manatee Sheriffs Office partner. Brinson’s evidence’s were not trial admitted.
Because no link to Fast to the crimes were on these evidence’s. Appx. FF D-23 1.
11 to 25; U.S.M.D.C. Appx. A: T-000152 to T-000152 to T-000156; Nelson
hearing, supra, prosecutor stated similarly to knowledge of pendant Federal
record’s. Appx. U; V; X. Fortner, Estelle.10 Appx. Five C(l); Six (brief), F, H, I;
seven (reply brief); eight (brief), C(2)(brief).
THOMAS L. FAST HAD NO INVOLVEMENT IN ANY FORM TO THIS
DEATH AND ROBBERY. PROSECUTORS ADMITTED NO CONVICTING
EVIDENCES AGAINST FAST.

9 Brady v. Maryland, 373 U.S. 83 (1963) (due process violation if (1) defendant
requests suppressed material; (2) prosecution suppressed evidence favorable to
Defendant upon request; and, (3) evidence is material to guilt or punishment).
10 Fortner v. Balkcom, (C.A. 5 (GA) 1967), 380 F.2d 816 (“claim of denial of
compulsory process is cognizable in habeas corpus proceeding.”) Habeas corpus
Key 495. Hardin v. Estelle, (C.A. 5 (Tex.) 1973, 484 F.2d 944. Habeas corpus
Key 495. (Habeas corpus relief was properly granted state petitioner on ground of
denial of compulsory process for his witnesses). Thompson West Pub., particular
proceedings, 28 U.S.C. 2254, Volume 2, page 299, note 1922 - Compulsory
Process, Evidence and Witnesses as Grounds for Writ.
32

Dr. Fast was illegally and falsely convicted of state claimed murder of
Soviet Chameleon and clearly conclusive false, non-existent robbery. Pre-trial,
trial, postconviction Fast’ filing’s show actual-factual innocence’s substantiating
planted, falsified DNA, and jewelry conviction’s evidence’s manifesting
fundamental manifest injustice overcomes procedural bars.

Appx. Twelve:

U.S.M.D.C. attachment’s 1, 2, 7.
b) Mr. Arthur Brown, prosecutor knowingly, deliberately trial admitted
falsified evidence’s to deceive court, jury.

Appx. Twelve: U.S.M.D.C.

attachment’s 1, 2, 3, 5, and 6. (Attachment 7 outline’s the scrivener errors on the
trial transcript record.) See, Appx. Two: trial docket summary sheet entries # 410,
412, 415, 416, 419: Florida Second District Court of Appeal case # 2D12-237 to
correct the scrivener erred record. See, also Appx. U: FOI / PA veracity test
request.) Appx. Twelve: U.S.M.D.C. Attachments 1, 2 outline evidence’s showing
prosecutors admission’s incompatable with demand’s of justice. Gigliou violation.

11 Thomson West Pub., United States Code Annotated, Constitution, Amendment
V, Volume 2, due process, page 732 note 882. - False and Perjured Testimony,
Criminal Evidence.” Deliberate deception of court and jurors by presentation of
known false evidence is incompatible with rudimentary demands of justice.”
Giglio v. United States, 405 U.S. 150, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972).
Criminal Law Key 706(2).
United States v. Fontent, C.A. 5 (Fla.) 1980, 628 F.2d 921, certiorari denied 101
S.Ct. 3030, 452 U.S. 905, 69 L.Ed.2d 406, Criminal Law Key 706(2).
“Government is under affirmative duty to correct false statements made by its
witnesses.”
33

Appx. A: T-1283 1. 23 to 24 court overruled defense objection during prosecutor
closing statement to

. .facts not in evidence..Deck}2

Prosecutor pretrial, trial opening, then closing trial statement’s evidence
prosecutor failed affirmative duty to correct the false state witness statement’s and
misrepresented necessary element’s for conviction, e.g., Mr. Gilbert Pierola, jail
inmate state agent that was twice convicted of untruthful statements, that pretrial
and trial admitted, untruthful statement’s. Del Vecchio,n holding is conclusive
based on prosecutor and Mr. Pierola’s untruthful misstatements.

See Appx.

Twelve: U.S.M.D.C. attachments 3(b) pg.’s 1-2 and addendum pg. 5; 1. 23 to 29;
attachment 6. See. Foment, Del Vecchio.11
Prosecutor made no attempt to perform affirmative duty to correct state
witnesses false evidentiary testimonies.

But, allowed state witness false

testimonies to stand. However, defense counsel elicited truthful state witnesses
United States v. Sanfilippo, C.A. 5 (Fla.) 1977, 564 F.2d 176. Constitutional Law
Key 266(1). “Due process is violated when prosecutor, although not soliciting
false evidence from government witness, allows it to stand uncorrected when it
appears. ... [.] ... and fact that the false testimony goes only to the credibility of
witness does not weaken this rule.” United States v. Johnson, C.A. 8 (Mo.) 1981,
649 F.2d 617. Constitutional Law Key 268(9).
U.S. ex rel. Del Vecchio v. Illinois Department of Corrections, N.D.I11. 1992, 795
F.Supp. 1406, affirmed in part, reversed in part 31 F.3d 1363, certiorari denied 115
S.Ct. 1404, 514 U.S. 1037, 131 L.Ed.2d 290, rehearing denied 115 S.Ct. 1992, 514
U.S. 1123, 131 L.Ed.2d 878. Constitutional Law Key 268(9). “Knowing use of
perjured testimony constitutes denial of due process.”
12 Deck v. Jennings, 768 F.3d 1015, 1025-27 (9th Cir. 2014) (due process violation
because prosecutor’s closing statement misrepresented necessary element for
conviction).
34

testimonies utilizing police report’s, see, U.S.M.D.C. appendices 1, 2, 3, 5, 6, 7.
Appx. U. Sanfiupcr, Johnson; and Del Vecchio.
Prosecutor continuously knowingly used perjured testimonies to facts not in
evidence causing fair trial due process violation’s.

Prosecutor misstatements

prejudiced court, jury. Appx. Twelve: U.S.M.D.C. appendiced attachments 1, 2, 3,
5.

U.S.M.D.C. Appx. A: unambiguous pretrial and trial transcript record’s

substantiating

Fast’

actual-factual

innocence ’ s.

28

U.S.C.

2254(b)(i)(B)(i)(ii),(d)( 1 )(2).
Trial counsel’s cross- and re-cross examination’s brought to light Fast’
actual-factual innocence’s showing prosecutor misstatement’s.
Fast raised to lower court’s were misapprehended.

Misstatement’s

Fast’ diligently attempted

admitting corrected record, Appx. U; case 2D12-237, double-triple veracity test;
and, replacement of missing record’s manifesting fundamental manifest injustice
cause procedural default’s.
Prosecutor deliberately, in malice misstated relevance to 50 U.S.C. 3024(i),
executive order 12333, Appx. U, actual-factual innocence’s record’s during Nelson
hearing, to be transcribed, admitted. See, Nelson hearing in-camera recording.
Prosecutor Nelson hearing voice inflection’s were derogatory toward’s the United
States government and Petitioner. Prosecutor misstatements to court during Nelson
hearing, to the relevance of protected Federal record’s and denial to admit these

35

V

record’s through United States District Court manifested miscarriage of justice
caused procedural defaults structural due process access to the court fair trial rights
violation’s. Brady violation. Prosecutor during this hearing admittedly spoke to
Tampa U.S. Attorney, FBI offices declining Fast’s prosecution. Art. VI, cl. 2
Supremacy Clause; Fifth and Fourteenth United States Constitution Amendment;
28 U.S.C. 2254(b)(i)(ii), (d)(l)(2) Senate Revision Amendment; 28 U.S.C.
1442(a), (c)(3); 18 U.S.C. 111(a)(2), 18 U.S.C. 1114 (immunity to criminal
prosecution); 28 U.S.C. 1331; 28 U.S.C. 1339, 18 U.S.C.; 18 U.S.C. 2338, 18
U.S.C.
Complete departure from essential law requirement occurred. Harm was not
corrected on state direct appeal there is continuing procedure illegality, not
erroneous proceeding. Continued right deprivation’s under unconstitutional statute
have resulted in irreparable injury to Fast (Fast’ baby was GRU-FARC-Shining
Path murdered in FARC labsite Fast’ kidnapped pregnant wife was enslaved in).
Fast evidenced state trial court’s illegal jurisdiction, illegality and
irregularity of state court’s procedure’s that lower Federal court’s supported by not
deciding on meritorious actual-factual innocence’s fact’s manifesting fundamental
miscarriage of justice cause procedural default’s due to prosecutors and state
appellee misstatements to 50 U.S.C. 3024(i) actual-factual innocence’s record’s in
pendency.

36

Appellate court and district court orders are contrary to this supreme and
appellate court holdings causing due process violations.

Therefore, this most

Honored Supreme Court must exercise its constitutional duty to secure Petitioner’s
Fifth and Fourteenth Sectional’s 1, 3 Amendment rights.
VII. CONCLUSION
Petitioner, Thomas L. Fast, (former?) Federal Officer, has been deprived
basic fundamental rights guaranteed by Article III, Section 2[2][3]; Article VI
clause 2; Fifth, Six, Fourteenth Section’s 1, 3, United States constitutional
amendments, seeks relief to restore these rights. Minimally evidenced on this
Petition through excerpts from state, federal 2254, proceeding’s.
blatantly violated petitioner’s due process rights.

State agents

Petitioner prays for writ

issuance, reversal of the court of appeal judgment(s),13 accept or relegate to United
States court’s original jurisdiction rights and find due process violation(s).

13

If this court elects not to address the issues presented in this petition at this time,
it is requested that the writ issue and the matter(s) be remanded to the United States
Middle District Court, Tampa, Division, Florida or to the Eleventh Circuit Court of
Appeal for reconsideration in light of this Court’s opinions in Tanella, supra; Fair,
supra; Adderley, supra; Brady, supra; Williams, supra.
37

A 1‘ \

Petition for Writ of Certiorari should be granted. Respectfully submitted on
this 23 day of

, 2021.

/si
#818015
Thomas U Fast, Appellant-Petitioner

CERTIFICATE OF COMPLIANCE
THOMAS L. FAST,
Petitioner,

Case No.:

v.
UNITED STATES MIDDLE DISTRICT
COURT, Tampa Division, Florida; and
ELEVENTH CIRCUIT COURT OF
APPEALS, Atlanta, Georgia,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the petition for writ of
certiorari contains 7498 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on fefcuAfcy £3 . 2021.
#818015
Thomas L. Fast, Appellant-Petitioner
Martin Correctional Institution
1150 SW Allapattah Road
Indiantown, FL 34956
/Si

38

5011

•*

< t

>

Petition for Writ of Certiorari should be granted. Respectfully submitted on
thisSUcdav of

, 2021.

#818015
Thomas L. Fast, Appellant-Petitioner

CERTIFICATE OF COMPLIANCE
THOMAS L. FAST,
Petitioner,

Case No.:

v.
UNITED STATES MIDDLE DISTRICT
COURT, Tampa Division, Florida; and
ELEVENTH CIRCUIT COURT OF
APPEALS, Atlanta, Georgia,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the petition for writ of
certiorari contains 7498 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on VWa\ S-U.T

2021.

#818015
Thomas L. Fast, Appellant-Petitioner
Martin Correctional Institution
1150 SW Allapattah Road
Indiantown, FL 34956
38
XIV

